No. ____________

In the Supreme Court of the United States
Kyle Kopitke v. Karen Brinson Bell
AFFIDAVIT OF SERVICE
I, Shelly N. Gannon, being eighteen years or older, do certify under penalty of
perjury that the following is true and correct. On this, the 28th day of December,
2020, Pursuant to (ORDER LIST: 589 U.S.) I filed the foregoing petition with the
United States Supreme Court electronically and deposited one (1) paper copy via UPS
Ground Transportation, (1) paper copy via USPS, First Class Mail, postage pre-paid
and served via electronic mail of the same, to the following:
Nicholas Scott Brod
Paul Mason Cox
Joshua Stein
NORTH CAROLINA
DEPARTMENT OF JUSTICE
P. O. Box 629
Raleigh, NC 27602-0629
(919) 716-6400
nbrod@ncdoj.gov
pcox@ncdoj.gov
Counsel to Respondent
Shelly N. Gannon
Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 – Telephone
(804) 249-7771 – Facsimile
shelly@gibsonmoore.net

For:
Alan P. Woodruff
Counsel of Record
LAW OFFICES OF ALAN WOODRUFF
3394 Laurel Lane S.E.
Southport, NC 28461
(910) 854-0329
alan.jd.llm@gmail.com
Counsel for Petitioner
Signed and subscribed before me on this the 28th day of December, 2020.

